       America the Beautiful


FEDERAL LABOR RELATIONS AUTHORITY
      OFFICE OF INSPECTOR GENERAL


         34th SEMIANNUAL REPORT
             TO THE CONGRESS




              April 1, 2005
                through
           September 30, 2005
                          EXECUTIVE SUMMARY
This is the 34th Semi-Annual report issued by the Office of Inspector General (OIG) at
the Federal Labor Relations Authority (FLRA). This report, submitted pursuant to
section 5 of the Inspector General Act, summarizes the major activities and
accomplishments of the FLRA Inspector General for the period of April 1, 2005 to
September 30, 2005.

During this reporting period, the FLRA Office of the Inspector General began conducting
the FY 2005 Financial Statement Audit, processed 7 hotline calls, received 6
complaints, 2 of which involved FLRA Inspector General administrative investigations, 1
which is on hold and started a preliminary internal review of FLRA’s Administrative
policies. During this reporting period the FLRA Inspector General conducted a Federal
Information Security Management Act (FISMA) Review, which was submitted to FLRA
Management on August 19, 2005.

On September 22, 2005, the FLRA Inspector General provided FLRA management a
list of Inspector General opened oversight findings and recommendations from 1998 to
the current time and requested management's response. Management has begun to
review and update these findings and recommendations. No new oversight findings
and recommendations were made during this reporting period because several
oversight functions were not completed as of September 30, 2005. During this reporting
period, the FLRA Chief Information Officer focused on and completed several
information security findings, which were indicated in the Inspector General’s FY 2005
FISMA Review.

During this reporting period, a President’s Council on Integrity and Efficiency and
Executive Council on Integrity and Efficiency (PCIE/ECIE) Peer Review of the FLRA
Inspector General’s Audits was completed and issued. This review indicated that the
FLRA Inspector General has a significant impairment to independence because of the
lack of sufficient staffing and a very limited budget.

During this reporting period, FLRA Management has continued to address the
improvement of the efficiency and effectiveness of several programs, which had
previously been addressed by the Inspector General's oversight activities. These
included procurement, information security and human capital. Management also is
currently addressing Agency-wide position classification and cost analysis to ensure
that the FLRA operates in a productive manner and is in compliance with the
President's Management Agenda.




                           34th Semi Annual Report - 2 of 16
         THE FEDERAL LABOR RELATIONS AUTHORITY
The FLRA is an independent agency responsible for directing the labor-management
relations for 1.9 million non-postal Federal employees worldwide, nearly 1.1 million of
who are exclusively represented in approximately 2,200 bargaining units. The FLRA is
charged by the Federal Service Labor-Management Relations (The Statute), section
7105, with providing leadership in establishing policies and guidance relating to Federal
sector labor-management relations, resolving disputes arising among Federal agencies
and unions representing Federal employees, and ensuring compliance with the Statute.

The FLRA represents the Federal government’s consolidated approach to labor-
management relations. It is “three components in one,” fulfilling legal statutory
responsibilities through its three primary operational components – the Authority, the
Office of General Counsel and the Federal Service Impasses Panel. The FLRA has 7
regional offices and two satellite offices. The FLRA also provides full staff support to
two other organizations – the Foreign Service Impasses Disputes Panel and the Foreign
Service Labor Relations Board.

The Authority is a quasi-judicial body with three full-time Members who are appointed
for 5-year terms by the President, with the advice and consent of the Senate. One
member is appointed by the President to serve as Chairman of the Authority and as
Chief Executive and Administrative Officer of the FLRA.

The Authority adjudicates disputes arising under the Statute, deciding cases concerning
the negotiability of collective bargaining agreement proposals, unfair labor practice
(ULP) allegations, representation petitions, and exceptions to grievance arbitration
awards. In addition, consistent with its statutory responsibility to provide leadership in
establishing policies and guidance to participants in the Federal labor-management
relations program, and as part of the Collaboration and Alternative Dispute Resolution
(CADR) Program described below, the Authority assists Federal agencies and unions in
understanding their rights and responsibilities under the Statute and resolving their
disputes through interest-based problem-solving rather than adjudication.

In addition to the three Member Offices, the Authority component of the FLRA also
houses the Office of Administrative Law Judges, the Collaboration and Alternative
Dispute Resolution Office, the Office of the Solicitor, the Office of the Executive
Director, and the Office of the Inspector General.

Office of the Administrative Law Judges: The FLRA’s Administrative Law Judges
(ALJ) are appointed by the Authority to hear and prepare recommended decisions in
cases involving alleged ULPs. In addition, ALJ’s issue decisions involving applications
for attorney fees and files pursuant to the Back Pay Act or the Equal Access to Justice
Act. The decisions of the ALJ’s may be affirmed, modified, or reversed, in whole or in
part, by the Authority. If no exceptions are filed to an ALJ’s decisions, the decision is
adopted by the Authority and becomes final and binding on the parties. The ALJ’s also
issue subpoenas as requested by the parties. While performing their duties, the ALJ’s


                            34th Semi Annual Report - 3 of 16
engage in settlement efforts throughout all stages of the process and conduct pre-
hearing conferences in all ULP cases.

Office of Policy, Project & Performance Management: The Office of Policy, Project
& Performance Management is responsible for agency-wide strategic policy and
planning, including the role of chief human capital officer. The office also provides
oversight with respect to FLRA performance management initiatives. The office drafts,
reviews, and approves all agency-wide instructions and policies; oversees the
Chairman’s and the Administration’s initiatives; and develops agency-wide initiatives,
which upon the Chairman’s final approval are implemented through the Office of the
Executive Director. The office also houses the agency’s congressional affairs function
and serves as the Chairman’s primary point of contact with the Solicitor, Executive
Director, EEO Director, and Inspector General.

Collaboration and Alternative Dispute Resolution (CADR) Office: The CADR Office
is responsible for coordinating, supporting, and expanding the unified CADR Program.
This program involves a variety of collaboration and alternative dispute resolution
techniques at all steps of the process, from investigation and prosecution to the
adjudication of cases and resolution of bargaining impasses. The CADR Program also
provides facilitation and training programs to assist labor and management in
developing constructive approaches to conducting their relationship.

Office of the Solicitor: The Office of the Solicitor represents the Authority in court
proceedings before all United States Courts, including the U.S. Supreme Court, U.S.
Courts of Appeals, and Federal District Courts. The office serves as the agency’s in-
house counsel, providing legal advice to all FLRA components. The Solicitor is also the
Designated Agency Ethics Officers under the Ethics in Government Act of 1978, as
amended.

Office of the Executive Director: The Office of the Executive Director provides
operational support to all components of the FLRA, including budget and finance,
human resources, procurement, administrative services, and information resources
management and is responsible for developing and implementing agency-wide
initiatives, such as strategic planning.

Office of the Inspector General: The Office of the Inspector General (OIG) is
responsible for directing and carrying out audits and investigations related to the FLRA
programs and operations. In addition, the office recommends policies that promote
economic, efficient, and effective agency programs that prevent fraud, waste and
abuse. The office is responsible for keeping the Chair and the Congress fully informed
of problems and deficiencies, as well as the necessity for corrective action. Public Law
100-504 and the Inspector General Act Amendments of 1988 mandate the Office of the
Inspector General.

The Office of the General Counsel: The Office of the General Counsel (OGC) is the
independent investigative and prosecutorial component of the FLRA. The OGC



                           34th Semi Annual Report - 4 of 16
investigates all ULP charges filed by labor or management and prosecutes all ULP
complaints before the Authority. The General Counsel, who is appointed by the
President with the advice and consent of the Senate for a 5-year term, manages all
OGC employees who comprise over 50 percent of the FLRA’s staff. Most of the OGC’s
staff serve in the FLRA’s seven regional offices located in Atlanta, Boston, Chicago,
Dallas, Denver, San Francisco, and Washington, DC. The Office of the General
Counsel also operates 2 satellite offices, located at Brea, California and Cleveland
Ohio. The regional and satellite offices investigate and settle or prosecute ULP claims,
actively encouraging the use of collaboration and alternative dispute resolution at every
step, to ensure compliance with all ULP orders issued by the Authority. The regional
offices also receive and process representation petitions, and provides facilitation,
intervention, training, and education services to the parties. The General Counsel
reviews all appeals of a Regional Director’s decision not to issue a ULP complaint and
establishes policies and procedures for processing ULP charges.

The Federal Service Impasses Panel: The Federal Service Impasses Panel (FSIP or
the Panel) is composed of seven part-time Members who are appointed by the
President to serve for a 5-year term. One Member is appointed by the President to
serve as the Panel Chair. The Panel resolves bargaining impasses between Federal
agencies and unions representing Federal employees arising from negotiations over
conditions of employment under the Statute and the Federal Employees Flexible and
Compressed Work Schedules Act. If bargaining between the parties, followed by
mediation assistance, proves unsuccessful, the Panel has the authority to recommend
procedures and to take whatever action it deems necessary to resolve the impasse.

The Foreign Service Labor Relations Board: The Foreign Service Labor Relations
Board (the Board) was created by the Foreign Service Act of 1980 to administer the
labor-management relations program for Foreign Service employees in the U.S.
Information Agency, the Agency for International Development, and the Departments of
State, Agriculture and Commerce. The Board is composed of three Members, including
the Chairman of the Authority who appoints the other two Members, who serve on a
part-time basis. The Chairman of the Authority also serves as Chairman of the Board.
The FLRA General Counsel acts as General Counsel for the Board, and the Authority
staff provides necessary support to the Board.

The Foreign Service Impasse Disputes Panel: The Foreign Service Impasse
Disputes Panel (the Disputes Panel) was also created by the Foreign Service Act of
1980. The Disputes Panel is composed of five part-time Members who are appointed
by the Chairman of the Foreign Service Labor Relations Board (the FLRA Chair). The
Disputes Panel resolves bargaining impasses between Federal agencies and Foreign
Service personnel in the U.S. Information Agency, the Agency for International
Development, and the Departments of State, Agriculture, and Commerce, over
conditions of employment under the Foreign Service Act of 1980. The FSIP staff
supports the Disputes Panel.




                            34th Semi Annual Report - 5 of 16
The FLRA's headquarters is located in Washington, D.C. The FLRA maintains regional
offices in Atlanta, Boston, Chicago, Dallas, Denver, San Francisco, and Washington,
D.C. The FLRA had 159 full-time equivalents (FTE’s) as of September 30, 2005 and
had a 2005 budget appropriation of $25,467,616.00


FLRA MISSION STATEMENT
The Federal Labor Relations Authority exercises leadership under the Federal Service
Labor-Management Relations Statute to promote stable, constructive labor relations
that contribute to a more effective Government.

The mission of the FLRA is to carry out five primary statutory responsibilities as
efficiently as possible and in a manner that gives full effect to the rights afforded
employees and agencies under the Statute.

Under the Statute, the primary responsibilities of the FLRA include:

•   Determining the appropriateness of units for labor organization representation;
•   Adjudicating exceptions to arbitrator's awards;
•   Resolving complaints of unfair labor practices; and
•   Resolving impasses and issues relating to the duty to bargain.

OFFICE OF INSPECTOR GENERAL

The FLRA's Office of Inspector General was established pursuant to Public Law 100-
504, the Inspector General Act Amendments of 1988, which amended Pub. L. 95-452,
and the Inspector General Act of 1978. The Inspector General reports directly to the
FLRA Chairman. As set forth in the authorizing legislation, the FLRA Inspector General:

•   Conducts and supervises internal reviews, audits and evaluations of the programs
    and operations of the FLRA;

•   Provides leadership and coordination, and recommends actions to management,
    which: (1) promote economy, efficiency, and effectiveness in agency programs and
    operations; and (2) prevent and detect fraud, waste, abuse, and mismanagement of
    government resources; and

•   Keeps the Chairman, FLRA management, and the Congress fully informed
    regarding problems and deficiencies, and the progress of corrective action.

The Inspector General’s Office is currently staffed with one full time Inspector General
and one full time Management Analyst (upward mobility position). When required, the
FLRA Inspector General uses contractor auditors to perform audits. The Office of the
Inspector General's FY 2005 budget was $77,500.00. The FLRA, Inspector General
submitted a request for an increase in operational funding in the FLRA Office of



                            34th Semi Annual Report - 6 of 16
Inspector General FY 2005 budget submission. The FY 2006 budget allocation has not
yet been provided.

OFFICE OF INSPECTOR GENERAL MISSION STATEMENT

The mission of the FLRA Office of Inspector General is to provide FLRA leadership,
along with an independent and objective assessment of the organization’s efficiency
and effectiveness. This is accomplished through proactive evaluations of FLRA
operational processes. The Inspector General provides necessary oversight and serves
as a catalyst for improving and maximizing the efficiency and integrity of FLRA
programs and operations. The goal of the Inspector General's work is to maximize the
effectiveness of FLRA programs by evaluating performance and identifying ways to
make these programs more efficient and effective. In addition, the FLRA Inspector
General strives to prevent and detect fraud, waste, abuse, and mismanagement of the
FLRA’s resources and operations, which could adversely impact the organization’s
integrity and ability to perform its mission in a timely, customer responsive manner.

The primary objectives of the Office of Inspector General are as follows:

•   To evaluate the efficiency and effectiveness of FLRA program and resource
    management and identify best practices, as well as causative factors, impeding the
    accomplishment of the FLRA mission.

•   To assist the Chairman and FLRA management in carrying out their responsibilities
    by providing them with objectives and timely information on the conduct of FLRA
    operations, together with the Inspector General’s independent analysis, conclusions,
    and recommendations.

•   To use evaluations, internal reviews, and more traditional assessment tools of
    audits, inspections, and investigations, to maximize oversight and strengthen system
    and process controls.

•   To support the Administration and Congress in maximizing Government integrity and
    efficiency and minimizing the occurrence of fraud, waste, abuse, and
    mismanagement.




                            34th Semi Annual Report - 7 of 16
                     AUDIT/INTERNAL REVIEW ACTIVITY
During this reporting period the FLRA Office of the Inspector General in compliance with
Government auditing standards performed the following audits and reviews:

Audit of 2005 FLRA Financial Statements                                   Open

During this reporting period, the Office of the Inspector General began the second audit
of FLRA's compliance with Financial Statements, which were implemented in 2004. This
audit includes the review of FLRA's balance sheet and the related statements of net
cost, changes in net positions budgetary resources and financing for fiscal year 2005.
This audit includes a comprehensive review of FLRA internal controls and risk
assessments related to management of the FLRA’s financial statements. With the
exception of security information technology and FISMA requirements, almost all other
findings and recommendations from the Audit of FLRA’s 2004 Financial Statement Audit
have not yet been corrected.

FLRA Inspector General FY 2005 FISMA Review                               Closed

During this reporting period, the FLRA completed a comprehensive review of FLRA’s
information security and addressed all elements of National Institute of Standards and
Technology (NIST) guidance. The FLRA’s l7 internal systems and 6 external systems
were categorized appropriately according to Federal Information Processing Standards
199 (FIPS). Most of the category levels were medium and at an acceptable level. The
Chief Information Officer/Acting Director of Information Resource Management has
completed the creation of security policy, which was submitted for approval in July
2005. These policies addressed Contingency Planning, Data Backups, Incident
Reporting, Security Program Plan, Security Program Polices and Procedures, User
Account Control, Segregation of Duties, Security Awareness Training, Systems
Certification and Accreditation, Systems Development Life Cycle and Change Control,
and Acceptable Use of Information Resources. Until these policies are implemented,
the FLRA’s information technology will continue to function in a vulnerable condition.
This FY 2005 Inspector General FY 2005 FISMA Review also revealed that the FLRA
Chief Information Officer/Acting Director of the Information Resource Management
Division analyzed user account management on the Agency network and Agency-wide
systems and conducted an impact analysis of the use of passwords. FLRA also created
a test lab to assess the effect of patches to the network servers to make sure that
computers and servers are properly updated. During FY 2005, the FLRA also obtained
13 new laptops to replace laptops in one of the Regional Offices, which were not
operating properly.

The most significant information security problem in FY 2005 were infections of the
FLRA networks caused by Trojan viruses, an excessive amounts of spam’s and
pornographic e-mails. Many employees spent more than 15 minutes eliminating e-mail
spams from their computers every work morning, informed the FLRA Inspector General




                           34th Semi Annual Report - 8 of 16
who periodically contacted the FLRA CIO concerning this matter. The FLRA tested Surf
control software and plans to install it once the FLRA’s migration is completed.

During FY 2005, no Agency wide security information training was provided for
employees although the Information Security Division employees met FISMA security
training requirements through the Office of Management and Budget approved on-line
training. The FLRA security technology systems still have vulnerabilities, however, the
fact that some improvements have been made is a positive step.

External Quality Control Review of the Audit                          Closed
Operations of the Office of Inspector General,
Federal Labor Relations Authority

This Peer Review conducted and completed by the ECIE was issued April l8, 2005.
This Peer Review focused on whether the FLRA Office of Inspector General followed
applicable Government Auditing Standards in the conduct of its audits. This review
found that the FLRA Office of Inspector General was in compliance with Government
Auditing Standards. As stated in the previous FLRA Inspector General Peer Review,
the staffing and budgetary restrictions allocated for the Office of the Inspector General
have placed a restrictive impairment to independence and extent of operations of the
FLRA Office of Inspector General. The Peer Review also noted that the FLRA Inspector
General’s budgetary restrictions have also caused the FLRA Inspector General to be
unable to meet continuing Inspector General education requirements over the last three
years.

Internal Review of FLRA Administrative Policy                           Open

This internal review of FLRA’s Administrative Policy has just been started and is in the
preliminary phase. All FLRA policy will be reviewed to make sure it is current and in
compliance with Federal administrative requirements.

Other Activities

Oversight Corrective Actions

The FLRA Office of the Inspector General findings and recommendations from 1998 to
the present were submitted to FLRA Management during this reporting period.
Management was asked to provide information to the FLRA Inspector General
regarding Management actions related to addressing the oversight activities’ findings
and recommendations, which have been open from l998 to the present. Management
has begun to review the findings and corrective action list. Many of the FLRA’s
information security corrective actions have been addressed by the FLRA Chief
Information Officer/Acting Director of Information Resource Management and have
been submitted to FLRA management for approval before they can be implemented.




                            34th Semi Annual Report - 9 of 16
Administrative Work

During this reporting period, the FLRA Office of Inspector General updated files,
corrected information on the Office of Inspector General computer system which was
caused by the incompatibility between Word and Word Perfect on the office computers,
problems with methodology between the office network systems and the reorganization
of changed documents.

FLRA Security Incidents

The FLRA had no security incidents occur during this reporting period.

Inspector General Training

During this reporting period, there were no allocated funds provided for the FLRA
Inspector General to have sufficient training or attend the Annual PCIE/ECIE Inspector
General Conference. The FLRA Inspector General did attend Government Executive
2005 Leadership Sessions, which did not have financial charges.

Legislative Review/Comments

During this reporting period, the FLRA Inspector General has reviewed and provided
comments for the following policies:

                  PCIE/ECIE Strategic Framework
                  H.R. 2489 Improving the Government Accountability Act

Investigation Activity

During this reporting period, the FLRA Inspector General conducted 2 administrative
investigations, 1 preliminary investigation which is on hold waiting for the FLRA unfair
labor practice charge appeal timeline to close before investigating a related complaint.




                           34th Semi Annual Report - 10 of 16
INVESTIGATION LOG

During this reporting period, the FLRA Inspector General processed 6 Investigation
Complaints, 2 of which required investigations and 1 preliminary investigation,
which is currently on hold.



                    FEDERAL LABOR RELATIONS AUTHORITY
                         Office of the Inspector General
                          FY 2005 Investigation Log
                                                          Date
   Case No.                   Subject                                        Status
                                                        Received
2005-I-05          FLRA Regional Office Employee        7-21-05    Closed Investigation
                   threatened by potential customer.               7-21-05.

 2005-I-06         Department of Labor forwarded        7-14-05    Closed. Referred to
                   complaint relating to Union                     Department of Labor
                   Member spending Union money                     Inspector General
                   for personal gains.                             7-21-05.

 2005-I-07         Congressional referral of a          7-25-05    Closed.
                   complaint made by an IRS
                   manager about a Union member                    No ULP filed with FLRA.
                   never performing his job.                       Referred complainant to
                                                                   Department of Tax
                                                                   Administration Inspector
                                                                   General or Chicago
                                                                   Regional Attorney for
                                                                   information relating to filing
                                                                   ULPs. Provided
                                                                   Congressman relative
                                                                   information.
                                                                   7-26-05.
 2005-I-08         Retired, former TVA employee         7-29-05    Referred to FLRA Atlanta
                   alleges improper handling of his                Regional Director
                   retirement and funding complaints               7-29-05
                   by TVA, OPM and IRS.
                   Complainant stated that it is
                   FLRA’s authority to investigate
                   his alleged OPM and IRS’s
                   improper labor actions
 2005-I-09         FLRA employee alleges job            8-8-05     FLRA IG Investigating this
                   misconduct, harassment and                      issue.
                   threats by another employee.
 2005-I-10         Private Sector Attorney alleged      9-20-05    This investigation is on hold
                   improper handling of a ULP case                 until the FLRA unfair labor
                   which was done below OGC’s                      practice charge appeals
                   Quality Standards for Investi-                  period is closed.
                   gation and a regulations publish-
                   ed by the Office of Government
                   Ethics.



                           34th Semi Annual Report - 11 of 16
Hotline Calls

During this reporting period, the FLRA Inspector General processed 7 Hotline calls.


                    FEDERAL LABOR RELATIONS AUTHORITY
                         Office of the Inspector General
                              FY 2005 Hotline Log
                                                            Date
   Case No.                    Subject                                       Status
                                                          Received
 2005-H-08         Private Sector individual alleges     5-09-05     Closed
                   liens to real property.                           5-09-05.

 2005-H-09         Department of Navy employee           5-24-05     Closed. Referred to the
                   and Union member allege that an                   Federal Mediation &
                   Arbitration settlement filed with                 Conciliation Service.
                   the FMCS not being addressed
                   by management.


 2005 H-10         Retired Air Force employee and        6-23-05     Closed. Referred to
                   former Union Vice President                       Department of Labor
                   alleges current Union President                   Inspector General
                   has taken $2,400.00 from the                      6-23-05
                   Union for personnel use.

2005 H-11          Social Security journeyman level      7-6-05      Closed. Referred to
                   employee alleges improper                         Social Security Inspector
                   promotions and awards by                          General
                   management.                                       7-7-05


 2005-H-12         U.S. Postal Service                   7-13-05     Closed. Referred to U.S.
                   employee/Union Trustee found                      Postal Service Inspector
                   extensive misuse of funds by the                  General 7-13-05.
                   Union and was threatened by
                   Union leaders if she pursued or
                   mentioned this issue.
 2005-H-13         Former TVA employee alleged           7-13-05     Closed. Referred to OPM
                   improper handling of his Federal                  and IRS Inspector
                   Retirement plan complaint by                      General.
                   OPM and IRS.




                            34th Semi Annual Report - 12 of 16
                                                    TABLE I

        INSPECTOR GENERAL AUDIT REPORTS WITH QUESTIONED COSTS
                                                        NUMBER OF REPORTS            DOLLAR VALUE
A. For which no management decision has been
made by the commencement of the reporting                              0                  0
period.

B. Which were issued during the reporting period.                      0                  0

C. For which a management decision was made
during the reporting period.

         (i) Dollar value of disallowed costs.                         0                  0

         (ii) Dollar value of costs not disallowed.                    0                  0

D. For which no management decision has been
                                                                       0                  0
made by the end of the reporting period.



                                                 TABLE II

INSPECTOR GENERAL AUDIT REPORTS WITH RECOMMENDATIONS THAT
FUNDS BE PUT TO BETTER USE
                                                        NUMBER OF REPORTS            DOLLAR VALUE
A. For which no management decision has been           Currently being reviewed as
made by the commencement of the reporting                  part of the FY 2005            0
period.                                                 Financial Statement Audit

B. Which were issued during the reporting period.                      0                  0

C. For which a management decision was made
during the reporting period.

         (i) Dollar value of recommendations that
                                                                       0                  0
         were agreed to by management.

         (ii) Dollar value of costs that were not
                                                                       0                  0
         agreed to by management.

D. For which no management decision has been
                                                                       0                  0
made by the end of the reporting period.




                                  34th Semi Annual Report - 13 of 16
             FEDERAL LABOR RELATIONS AUTHORITY
                                Office of the Inspector General
                                    Oversight Activities Summary
                                   April 1, 2005-September 30, 2005
                                              SUBJECT                          STATUS
Audit of FLRA Financial Statements                                            In Process
Assessment of FLRA's Management and Performance                               In Process
Internal Review of FLRA Administrative Policy                                 In Process
Evaluation of FLRA Compliance with FISMA Act                                  Completed
Internal Review of Administrative Policy                                     Preliminary in
                                                                                Process

Administrative Investigations                                                3 Completed
                                                                             1 in Process
                                                                              1 on Hold




             FEDERAL LABOR RELATIONS AUTHORITY
                                Office of the Inspector General
                                CORRECTIVE ACTION SUMMARY
                                April 1, 2005 – September 30, 2005
New Corrective Actions                                                             0

Open Corrective Actions Carried Over                                              115

Total Actions Closed This Period

Total to be Carried Over (16 Corrective Actions by CIO awaiting Management
                                                                                  115
approval.)




                                   34th Semi Annual Report - 14 of 16
Definitions

Action

Completion by management of either all actions necessary to implement report
recommendations or a management decision that determines no action is necessary.

Funds Be Put To Better Use
The amount of savings estimated by the Inspector General that could be obtained by
implementing report recommendations relating to more efficiency and effectiveness of
programs and operations.

Management Decision
A final decision made by management in response to audit report recommendations
that may include actions concluded to be necessary or a determination that no action is
necessary.

Management Letter
This document brings to the attention of management any of a broad range of issues
and subjects which should be addressed by management, but do not require formal
audit or investigation. Management letters are generally unplanned and are issued to
report on situations found in conjunction with an on-going or completed audit or
investigation. These letters may also be used to expand on previously issued audit
report recommendations.

Questioned Costs
Expenditures questioned by the Inspector General are usually due to the following:

Unsupported costs, which involve inadequate documentation; Disallowed costs, which
involve an alleged violation concurred with by Managements Decision of a law,
regulation, grant, contract, or another agreement; or unnecessary costs which involve
unnecessary or wasteful spending.




                           34th Semi Annual Report - 15 of 16
REPORT FRAUD, WASTE, ABUSE, AND MISMANAGEMENT

                              TO

    THE FEDERAL LABOR RELATIONS AUTHORITY

       OFFICE OF THE INSPECTOR GENERAL

                         HOTLINE

          1-800-331-3572 (24 hr. service)

                      202-218-7744

                         or write to

                            FLRA

            Office of Inspector General

                  1400 K Street, NW

                         Suite 250

              Washington, D.C. 20424




            34th Semi Annual Report - 16 of 16
